No. 20-1318
IN THE
SUPREME COURT OF THE UNITED STATES

VINCENT W. SHACK,
Petitioner,
v.
NBC UNIVERSAL MEDIA, LLC,
IMG WORLDWIDE, INC.,
LADIES PROFESSIONAL GOLF ASSOCIATION, and
SAMSUNG ELECTRONICS AMERICA INC.
Respondents,

ON PETITION FOR WRIT OF CERTIORI TO THE
UNITED STATES DISTRICT COURT FOR THE CENTRAL DISTRICT OF
CALIFORNIA

CERTIFICATE OF COMPLIANCE

As counsel of record for Respondent NBC Universal Media, LLC, and
as required by Supreme Court Rules 33.1(h) and 33.2(b), I certify this 21st
April 2020, that the brief in Opposition to the Petition for a Writ of Certiorari

contains 1835 words and 9 pages, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).

/s/ Paul K. Schrieffer
Paul K. Schrieffer
pks@pksllp.com
P.K. SCHRIEFFER LLP
100 N. Barranca Street
Suite 1100
West Covina, California 91791
Telephone: (626) 373-2444
Facsimile: (626) 974-8403
Attorney for Respondent,
NBC Universal Media, LLC

